No. 20-1647

 

 

In THE
Supreme Court of the Anited States

‘VALERIE HANEY,

Petitioner,
Vv.

CHURCH OF SCIENTOLOGY INTERNATIONAL AND
RELIGIOUS TECHNOLOGY CENTER, DAVID MISCAVIGE,
AND DoEs 1-25,

Respondents.

On Petition for a Writ of Certiorari to the
Court of Appeal of California,
Second Appellate District, Division Five

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,287 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 25, 2021.

Uf

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
